                Avoidable Interest Was Paid on Tentative
               Carryback Refunds Requested by Corporate
                               Taxpayers

                                 September 2004

                       Reference Number: 2004-30-171




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     September 10, 2004

      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                            Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

      SUBJECT:                         Final Audit Report – Avoidable Interest Was Paid on
                                       Tentative Carryback Refunds Requested by Corporate
                                       Taxpayers (Audit # 200330039)


      This report presents the results of our review of refunds from Corporation Application for
      Tentative Refund (Form 1139). The overall objective was to determine whether refunds
      were timely issued to avoid the payment of interest and to satisfy taxpayer rights.
      Corporate taxpayers file Forms 1139 to obtain refunds of tax by carrying back net
      operating losses, net capital losses, or unused general business credits to earlier years.
      The Internal Revenue Service (IRS) has 90 days to make any refund or credit but must
      issue any refunds within 45 days to avoid paying interest.1
      In summary, the IRS paid corporate taxpayers an estimated $22.8 million in interest on
      an estimated 3,300 late refunds issued for amounts greater than $10,000 based on
      Forms 1139 processed in Calendar Year (CY) 2002. Interest was paid because the
      refunds were not issued within 45 days. We determined that the IRS could have taken
      actions to avoid payment of an estimated $12.6 million of this interest. We were unable
      to determine how much, if any, of the remaining $10.2 million could have been avoided,
      due to unavailable documents and other issues that may have contributed to the delays.
      We recommended the Director, Customer Account Services (CAS), Small
      Business/Self-Employed (SB/SE) Division, ensure interest reports are maintained to
      reflect the circumstances that delayed Tentative Carryback Refunds beyond the 45-day
      interest-free period and ensure corrective action is taken when the volume of instances
      signifies that a problem exists.



      1
          More specific details regarding the 90 day and 45 day requirements are included on page 1 of the report.
                                           2

Management’s Response: The IRS generally agreed with our recommendation. The
Accounts Management (AM) Operation within CAS, SB/SE Division, will request an ad
hoc report from the Net Tax Refunds Report to specifically identify Tentative Carryback
Interest. The report will enable campuses to monitor refund and interest issued daily on
Forms 1139. The AM Program Management/Process Assurance Staff and campuses
will review data collected from the ad hoc reports through October 30, 2004, and
provide recommendations, along with an assessment of the usefulness of the report, to
the Deputy Director, AM, SB/SE Division, by November 15, 2004.
IRS management agreed with the avoidable interest paid for CY 2002, but believed that
the measurable benefit on tax administration of $48.3 million, projected over 5 years,
should be reduced to reflect current performance. The IRS experienced a 30 percent
reduction in receipts and anticipates this will continue. Management’s complete
response to the draft report is included as Appendix V.
Office of Audit Comment: The computation of the measurable benefit on tax
administration recognizes that interest paid on late refunds in CY 2003 was about
30 percent less than the amount paid in CY 2002. Our review of actual cases was
limited to those processed in CY 2002. To estimate the avoidable interest paid in
CY 2003, the CY 2002 ratio of avoidable interest to total interest paid on late refunds
was applied to the total interest paid on late refunds in CY 2003. We used the lower
CY 2003 estimate for each of 4 years in addition to the CY 2002 amount to arrive at our
5-year estimate of $48.3 million of interest that could have been avoided. The
computations are included in Appendix IV.
Copies of this report are also being sent to the IRS mangers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Philip
Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (215) 516-2341.
                    Avoidable Interest Was Paid on Tentative Carryback Refunds
                                Requested by Corporate Taxpayers




                                                  Table of Contents


Background ............................................................................................... Page 1
The Payment of an Estimated $12.6 Million in Interest
Could Have Been Avoided ........................................................................ Page 2
         Recommendation 1: ........................................................................Page 7

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 9
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures............................................................ Page 14
Appendix V – Management’s Response to the Draft Report ..................... Page 18
             Avoidable Interest Was Paid on Tentative Carryback Refunds
                         Requested by Corporate Taxpayers

                                Corporations are generally required to file a U.S.
Background
                                Corporation Income Tax Return (Form 1120) on an annual
                                basis. In some years, corporations may have a net operating
                                loss, net capital loss, or unused general business credit.
                                In these situations, they may carry back these losses or
                                credits to earlier tax years and obtain a refund of their
                                taxes by filing a Corporation Application for Tentative
                                Refund (Form 1139). The tax for those years is recomputed
                                with the loss or credit, and the accounts are adjusted for the
                                difference. The Internal Revenue Service (IRS) has 90 days
                                from the latter of the date that the Form 1139 is filed or the
                                last day of the month the loss year return is due (with
                                extensions) to make any refund or credit.1 However, the
                                IRS must pay interest if the refund is not issued within
                                45 days.2
                                The Accounts Management Operation at the Cincinnati and
                                Ogden Campuses processed approximately 133,000
                                adjustments to Form 1120 accounts, based on Forms 1139
                                (also known as “tentative carryback” adjustments), in
                                Calendar Year (CY) 2002.3 Almost 38,000 were for
                                amounts in excess of $10,000, and an estimated 36,400 of
                                these resulted in refunds.
                                This review was performed at the IRS Cincinnati and
                                Ogden Campuses in Customer Account Services during the
                                period October 2003 through March 2004. The audit was
                                conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objective,
                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.




                                1
                                  I.R.C. § 6411(b) (1986).
                                2
                                  I.R.C. § 6611(f)(1) (1982). Interest is payable if the refund is not
                                issued within 45 days from the date Form 1139 is received or the due
                                date, without extensions, of the loss year return, whichever is later.
                                3
                                  The campuses are the data processing arms of the IRS. The campuses
                                process paper and electronic submissions, correct errors, and forward
                                data to the computing centers for analysis and posting to taxpayer
                                accounts.
                                                                                               Page 1
                 Avoidable Interest Was Paid on Tentative Carryback Refunds
                             Requested by Corporate Taxpayers

                                    The IRS paid corporate taxpayers an estimated
The Payment of an Estimated
                                    $22.8 million in interest on an estimated 3,300 late refunds
$12.6 Million in Interest Could
                                    (9 percent of the 36,400 refunds) issued based on
Have Been Avoided
                                    Forms 1139 processed in CY 2002.4 Interest was paid
                                    because the refunds were not issued within 45 days. We
                                    determined that by improving processes the IRS could have
                                    taken actions to avoid payment of an estimated
                                    $12.6 million of this interest on 87 percent of the estimated
                                    3,300 late refunds. Due to unavailable documentation and
                                    other issues that may have contributed to the delays, we
                                    were unable to determine how much, if any, of the
                                    remaining $10.2 million of interest on 13 percent of the
                                    estimated 3,300 late refunds could have been avoided.
                                    An estimated $2.5 million in interest payments could
                                    have been avoided by expediting refunds
                                    Almost half of the late refunds were late because they were
                                    allowed to refund in the normal refund time, rather than
                                    being expedited.5 These refunds were issued with an
                                    estimated $2.5 million in interest that would not have been
                                    paid had the refunds been expedited when the Forms 1139
                                    were processed.
                                    IRS procedures require that all refunds in excess of
                                    $1 million resulting from a tentative carryback adjustment
                                    be expedited. Refunds for amounts less than $1 million, but
                                    over the tolerance based on local procedures, should be
                                    expedited when the 45-day interest-free period is in
                                    jeopardy to avoid the payment of interest. These
                                    procedures, however, were not always followed.




                                    4
                                      This includes only interest paid due to the issuance of the refund in
                                    excess of 45 days. It does not include interest paid in error due to
                                    erroneous computations as discussed in a previous Treasury Inspector
                                    General for Tax Administration report, Improvements Are Needed to
                                    Ensure Large Dollar Manual Refunds Are Issued Accurately and Timely
                                    (Reference Number 2003-30-183, dated August 2003). See
                                    Appendices I and IV for more detailed information.
                                    5
                                      Refunds are expedited by issuing the refund manually within 1 to 5
                                    days.

                                                                                                   Page 2
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                   An estimated $10.1 million in avoidable interest was
                   paid due to other factors
                   Several other factors contributed to the delay in the issuance
                   of refunds involving an estimated $10.1 million in avoidable
                   interest. These other factors and the percentage of
                   avoidable interest associated with each include the
                   following:
                       •   Forms 1139 were received in the Accounts
                           Management Operation in sufficient time to issue
                           timely refunds, but there was a delay in processing
                           the forms (45.1 percent).
                       •   Refunds were delayed because some adjustments
                           containing errors were not promptly corrected, and
                           some refunds were stopped for review purposes
                           (26.0 percent).
                       •   Delays were caused by shipping cases from other
                           campuses and Area Offices (16.5 percent).
                       •   Delays at the Cincinnati Campus, of as much as
                           51 days, occurred between the time forms were
                           received at the Campus and the time they were
                           received in the Accounts Management Operation
                           where they are processed (7.9 percent).
                       •   Forms 1139 were erroneously sent directly to the
                           Examination function before the accounts were
                           adjusted and refunds issued (2.5 percent).
                       •   Forms 1139 were processed timely, but the refunds
                           were sometimes held to offset a portion of the
                           overpayment to a balance due on another account
                           (1.7 percent). The refunds were not issued until
                           some time after the forms were processed.
                       •   Refunds were returned as undeliverable due to errors
                           made by IRS personnel (.2 percent).6
                   In December 2001, the IRS consolidated the 10 campuses
                   working these cases to 2,7 requiring additional employees

                   6
                    The sum of percentages does not equal 100 percent due to rounding.
                   7
                    This does not include International cases, which were worked at the
                   Philadelphia Campus.
                                                                                  Page 3
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                   with specialized training to handle the increased workload at
                   these 2 campuses. In addition, the nationwide volume of
                   these tentative carryback adjustments in CY 2002 increased
                   40 percent over the CY 2001 volume. Part of this increase
                   was attributable to the Job Creation and Workers Assistance
                   Act of 2002.8
                   The Act, which allowed taxpayers to carry losses back
                   5 years instead of 2 years, became effective after some
                   taxpayers had already filed Forms 1139 and received
                   refunds. Therefore, the taxpayers filed amended
                   Forms 1139, requiring tax adjustments in earlier years and,
                   in some cases, reassessment of the previous adjustments.
                   Resulting overpayments in 1 year had to be offset to satisfy
                   newly created balances in other years, complicating the
                   issuance of refunds.
                   An additional estimated $10.2 million in interest was
                   paid, some of which may have been avoidable
                   In 13 percent of the estimated 3,300 late refunds, we were
                   unable to determine whether or not the payment of an
                   estimated $10.2 million in interest could have been avoided.
                   In some cases, we were unable to secure the necessary
                   documents to determine the cause for the delay in issuing
                   refunds paid with an estimated $6.3 million in interest.9
                   In the other cases, an additional $3.9 million was paid on
                   late refunds, which may or may not have been avoidable.
                   We estimate that for the cases where we could not make a
                   determination:
                       •   Interest was paid on refunds of taxpayers in
                           litigation or due to insolvency issues (40.2 percent).
                           The refunds, which must be approved before
                           issuance, may not be approved until well after the
                           Form 1139 has been processed. While the delay in


                   8
                     Pub. L. No. 107-147, 116 Stat. 21 (2002).
                   9
                     In 416 of the estimated 3,318 late refunds, we were unable to
                   determine whether the interest could have been avoided. In 54.6 percent
                   of the cases where we could not obtain the necessary documents to make
                   a determination, an estimated $6.3 million of interest was paid. In the
                   remaining 45.4 percent of these cases, an estimated $3.9 million of
                   interest was paid.
                                                                                  Page 4
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                          obtaining approval could not be avoided in some
                          cases, a case started too close to the 45-day limit
                          would not allow sufficient time to obtain approval
                          and issue the refund timely.
                      •   Delays were attributed to waiting for documents,
                          necessary for proper computations, from other areas
                          or files (28.6 percent).
                      •   Refunds were based on a Form 1139 that was
                          originally disallowed or lost and based on certified
                          receipts (16.9 percent).
                      •   Delays were caused by necessary corrections to
                          previous actions on the account before the refund
                          could be issued (14.3 percent).
                   Significant improvements have been made in processing
                   Form 1139 refunds
                   During 2002, the Ogden Campus processed almost three
                   times the number of tentative carryback adjustments as
                   they processed in the previous year. Ogden processed
                   Forms 1139 for the small business taxpayers in the western
                   part of the nation. They also processed the forms for the
                   Large and Mid-Size Business Division taxpayers
                   nationwide. The Cincinnati Campus, which also processed
                   more than twice the volume of tentative carryback
                   adjustments as in CY 2001, assisted with the Ogden
                   workload. Since that time, the Ogden Campus has added
                   more tax examiners to process these cases. The examiners
                   are also more experienced and better trained to process
                   “large dollar” cases.
                   While Forms 1139 are processed by employees in the
                   Tentative Carryback Unit of the Taxpayer Relations
                   Department at the Ogden Campus, Customer Service
                   Representatives (CSR) in the Toll Free Department process
                   most Forms 1139 at the Cincinnati Campus. The CSRs
                   were aware that refunds were being issued late, with
                   interest. However, they were performing a dual role:
                   processing adjustments, and handling customer service
                   phone calls. The phone calls took priority over processing
                   Forms 1139.


                                                                         Page 5
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                   Also, in CY 2002, Forms 1139 were distributed to any
                   personnel with the appropriate training in the teams
                   throughout the Accounts Management Operation at the
                   Cincinnati Campus. Since CY 2002, distribution of
                   Forms 1139 for processing at the Cincinnati Campus has
                   been limited to only a few groups and control over these
                   cases has greatly improved. A new system of sorting and
                   identifying cases by age and amount enables any CSR to
                   readily prioritize cases to be worked.
                   While the managers presently ensure that the CSRs have the
                   necessary time for these cases, handling phone calls remains
                   the priority. This could result in delays in processing
                   Forms 1139 during periods of heavy receipts.
                   The causes of late refunds should be analyzed to reduce
                   interest payments
                   Despite the improvements in procedures, an estimated
                   $16 million in interest was paid on an estimated 3,000 late
                   refunds based on Forms 1139 processed in CY 2003.10
                   In the past, an interest report was prepared for management
                   by the tax examiner in each instance when interest was paid
                   on an expedited refund issued based on a Form 1139. The
                   case was reviewed, and the report recorded the progress of
                   Form 1139 since receipt and the cause for the delay. These
                   reports have been discontinued. A simpler report recording
                   the cause of delays in processing any Form 1139 case where
                   the refund will be issued in excess of the 45-day limit would
                   alert management to any recurring problems requiring
                   attention. By using interest reports to monitor interest,
                   management can promptly address the causes and reduce
                   the payment of avoidable interest.
                   The Net Tax Refunds Report, generated from the Interim
                   Revenue Accounting Control System, captures interest from
                   some of these refunds, but the total interest paid on tentative
                   carryback refunds processed by the Accounts Management
                   Operation is not separately identified.




                   10
                        See Appendix I for more detailed information.
                                                                           Page 6
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                   Recommendation

                   The Director, Customer Account Services (CAS), Small
                   Business/Self-Employed (SB/SE) Division, should ensure:
                   1. Interest reports are maintained to reflect the
                      circumstances that delayed Tentative Carryback refunds
                      beyond the 45-day interest-free period. These reports
                      should be routed to a level of management with the
                      authority to take corrective action when the volume of
                      instances signifies that a problem exists.
                      The Director should determine whether it is feasible for
                      the information captured for Corporation Income in the
                      “Net Tax Refunds Report” to be altered to separately
                      identify tentative carryback adjustments and whether the
                      report could be used as a tool to monitor the interest on
                      the normal (generated) refunds.
                   Management’s Response: The IRS generally agreed with
                   our recommendation. The Accounts Management (AM)
                   Operation within CAS, SB/SE Division will request an ad
                   hoc report from the Net Tax Refunds Report to specifically
                   identify Tentative Carryback Interest. The report will
                   enable campuses to monitor refund and interest issued daily
                   on Forms 1139. The AM Program Management/Process
                   Assurance Staff and campuses will review data collected
                   from the ad hoc reports through October 30, 2004, and
                   provide recommendations, along with an assessment of the
                   usefulness of the report to the Deputy Director, AM,
                   SB/SE Division, by November 15, 2004.
                   IRS management agreed with the amount of avoidable
                   interest paid for CY 2002 but believed the measurable
                   benefit on tax administration of $48.3 million, projected
                   over 5 years, should be reduced to reflect current
                   performance. The IRS experienced a 30 percent reduction
                   in receipts and anticipates this will continue.
                   Office of Audit Comment: The computation of the
                   measurable benefit on tax administration recognizes that
                   interest paid on late refunds in CY 2003 was about
                   30 percent less than the amount paid in CY 2002. Our
                   review of actual cases was limited to those processed in
                   CY 2002. To estimate the avoidable interest paid in
                                                                        Page 7
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers

                   CY 2003, the CY 2002 ratio of avoidable interest to total
                   interest paid on late refunds was applied to the total interest
                   paid on late refunds in CY 2003. We used the lower
                   CY 2003 estimate for each of 4 years in addition to the
                   CY 2002 amount to arrive at our 5-year estimate of
                   $48.3 million of interest that could have been avoided. The
                   computations are included in Appendix IV.




                                                                            Page 8
                 Avoidable Interest Was Paid on Tentative Carryback Refunds
                             Requested by Corporate Taxpayers

                                                                                                  Appendix I


                         Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether refunds from Corporation Application for
Tentative Refund (Form 1139) were timely issued to avoid the payment of interest and to satisfy
taxpayer rights.
To accomplish our objective, we:
I.      Reviewed the U.S. Corporation Income Tax Return (Form 1120) accounts of the tax
        adjustments in our samples (details of samples to follow), and all of the tax adjustments
        for amounts in excess of $1 million. We determined whether interest-free refunds were
        issued within 45 days and whether any refunds were in excess of 90 days.
II.     Reviewed Internal Revenue Manuals related to the processing of Forms 1139. We
        determined the correct dates to be reflected in the adjustments and reviewed instructions
        for issuing manual refunds.
III.    Reviewed the adjustments where refunds were issued with interest and determined
        whether the correct Tentative Carryback dates were used.
IV.     Determined, where possible, the cause of the refund delays and whether the refunds could
        have been issued timely.
To obtain our samples, we extracted all Transaction Codes (TC) 295, Abatement of Prior Tax
With Interest Computation Date,1 processed in Calendar Year (CY) 2002 to the Business
Masterfile (BMF) for an amount greater than $10,000.2 We eliminated any TC 295s processed to
an account for U.S. Income Tax Return for Estates and Trusts (Form 1041) because these forms
are not processed by the Small Business/Self-Employed Division, and the 161 TC 295s
processed for Exempt Organization Business Income Tax Returns (Form 990T) and Farmers’
Cooperative Association Income Tax Returns (Form 990C) due to the insignificant volume. We
also eliminated any TC 295s that were not processed at the Cincinnati or Ogden Campus to the
account of a Form 1120 because there were only 858 such transactions.3
We stratified the results for each site into 3 categories because the interest paid on refunds in
excess of $1 million distorted the dollars projected to the universe. Also, processing differs
somewhat in each of the categories.

1
  A TC 295 in the account of a Form 1120 signifies that the tax adjustment was based on a Form 1139.
2
  The BMF is the Internal Revenue Service (IRS) database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and excise taxes.
3
  The campuses are the data processing arms of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.


                                                                                                        Page 9
                    Avoidable Interest Was Paid on Tentative Carryback Refunds
                                Requested by Corporate Taxpayers


Adjustments for amounts of $10 million or greater
We reviewed the account of each TC 295 with amounts of $10 million or greater (Cincinnati 47,
Ogden 513) to determine whether the refund was issued timely and the amount of any interest
paid. Refunds for $10 million and greater must be expedited.4
Adjustments for amounts of $1 million or greater, but less than $10 million
We also reviewed the account of each TC 295 for an amount of $1 million or greater, but less
than $10 million (Cincinnati 251, Ogden 1,974). Refunds for less than $10 million (including
interest) can be computer generated but are expedited for Forms 1139 if they are for $1 million
or greater to ensure timely issuance.
Adjustments for amounts of $10,000 or greater, but less than $1 million
We reviewed the accounts of a statistically valid sample of 539 randomly selected cases out of
13,434 TC 295s processed at the Cincinnati Campus for amounts of $10,000 or greater, but less
than $1 million. We also reviewed the accounts of a statistically valid sample of 428 randomly
selected cases out of 21,658 TC 295s processed at the Ogden Campus for amounts of $10,000 or
greater, but less than $1 million.
Samples were selected using a 95 percent confidence level and a confidence interval of 5. At the
95 percent confidence level, attribute sampling was used to project the number of cases where
interest was paid on the refund, and variable sampling was used to project dollars of interest
paid. For the CY 2002 Cincinnati sample, the standard error rate for the dollars of interest was
.01277 and the precision was 2.504 percent. For the Ogden sample, the standard error rate for
the dollars of interest was .01328 and the precision was 2.603 percent.
We also extracted a file of the TC 295s for amounts of $10,000 or greater processed to
Form 1120 accounts in CY 2003. We stratified these results for each site as we did for CY 2002
cases. We reviewed the account of each TC 295 for an amount of $10 million or greater
(Cincinnati 22, Ogden 481).
In addition, we reviewed the account of each TC 295 for an amount of $1 million or greater, but
less than $10 million processed at the Cincinnati Campus in CY 2003 (63), but we reviewed the
accounts for only a sample of the TC 295s in this range processed at the Ogden Campus.
Specifically, we reviewed the accounts of a statistically valid sample of 339 randomly selected
cases out of 1,691 TC 295s for amounts of $1 million or greater, but less than $10 million
processed at the Ogden campus in CY 2003.




4
    Refunds are expedited by issuing the refund manually within 1 to 5 days.
                                                                                          Page 10
               Avoidable Interest Was Paid on Tentative Carryback Refunds
                           Requested by Corporate Taxpayers

We reviewed the accounts of a statistically valid sample of 381 randomly selected cases out of
12,557 TC 295s processed at the Cincinnati Campus in CY 2003 for amounts of $10,000 or
greater, but less than $1 million. We also reviewed the accounts of a statistically valid sample of
383 randomly selected cases out of 21,837 TC 295s processed at the Ogden Campus for amounts
of $10,000 or greater, but less than $1 million.
Samples were selected using a 95 percent confidence level and a confidence interval of 5. At the
95 percent confidence level, attribute sampling was used to project the number of cases where
interest was paid on the refund, and variable sampling was used to project dollars of interest
paid. For the CY 2003 Cincinnati sample of TC 295s for amounts of $10,000 or greater, but less
than $1 million, the standard error rate for the dollars of interest was .01316 and the precision
was 2.58 percent. For the Ogden sample of TC 295s for amounts of $10,000 or greater, but less
than $1 million, the standard error rate for the dollars of interest was .01478 and the precision
was 2.90 percent. For the Ogden sample of TC 295s of $1 million or greater, but less than
$10 million, the standard error rate for the dollars of interest was .00640 and the precision was
1.26 percent.




                                                                                           Page 11
              Avoidable Interest Was Paid on Tentative Carryback Refunds
                          Requested by Corporate Taxpayers

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Kyle R. Andersen, Acting Director
Robert K. Irish, Audit Manager
Dolores Castoro, Lead Auditor
Carol Gerkens, Senior Auditor




                                                                                       Page 12
             Avoidable Interest Was Paid on Tentative Carryback Refunds
                         Requested by Corporate Taxpayers

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 13
                 Avoidable Interest Was Paid on Tentative Carryback Refunds
                             Requested by Corporate Taxpayers

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds put to better use – Potential; Estimated $48.3 million saved (see page 2).
Methodology Used to Measure the Reported Benefit:
A database of all tentative carryback adjustments, Transaction Codes (TC) 295,1 processed to
U.S. Corporation Income Tax Return (Form 1120) accounts in Calendar Year (CY) 2002 was
extracted. From this database of 135,843 transactions, less 235 for the transactions that were
split into 2 due to a partial reassessment, we extracted the 56,883 processed at the Cincinnati
Campus2 and the 76,173 processed at the Ogden Campus. For each Campus, we extracted a file
of all transactions for amounts of $10,000 or greater, so that any interest paid would be
significant. The resulting databases consisted of 13,732 transactions for the Cincinnati Campus
and 24,145 for the Ogden Campus.
Each database was further stratified to amounts of $10,000 or greater, but less than $1 million;
$1 million and greater, but less than $10 million; and $10 million or greater. The Cincinnati
database under $1 million (over $10,000) consisted of 13,434 transactions and the Ogden
database consisted of 21,658 transactions. It was from these 2 databases that we randomly
extracted statistical samples using a 95 percent confidence level and a confidence interval of 5.
The Cincinnati sample size for under $1 million tentative carryback adjustments was 539 and the
Ogden sample size was 428. There were 298 transactions greater than $1 million at the
Cincinnati Campus and 2,487 at the Ogden Campus.
Interest Paid on Late Refunds Processed in CY 2002
We reviewed the account of each TC295 in these files to determine if interest was paid on the
refund due to issuance in excess of 45 days. We found that the Internal Revenue Service (IRS)
paid an estimated $22.8 million in interest, determined as follows:
In the Cincinnati sample, total interest of $114,415.89 was paid on the late refunds in 55 of the
539 cases. Using attribute sampling, we projected the volume of 55 cases to the population of

1
  A TC 295 in the account of a Form 1120 signifies that the tax abatement was based on a Form 1139.
2
  The campuses are the data processing arms of the Internal Revenue Service. The campuses process paper and
electronic submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayer accounts.

                                                                                                         Page 14
                  Avoidable Interest Was Paid on Tentative Carryback Refunds
                              Requested by Corporate Taxpayers

13,434 and estimate that interest was paid on late refunds in 1,371 cases. Using variable
sampling, we estimate that interest of $2,851,694 (+/- $1,688,290) was paid in the 1,371 cases.
In the Ogden sample, total interest of $80,917.54 was paid on the late refunds in 36 of the
428 cases. Using attribute sampling, we projected the volume of 36 cases to the population of
21,658 and estimate that interest was paid on late refunds in 1,822 cases. Using variable
sampling, we estimate that interest of $4,094,654 (+/- $2,347,339) was paid in the 1,822 cases.
We also reviewed all of the tentative carryback adjustments for amounts of $1 million or more
for Cincinnati and Ogden where interest was paid on a late refund. Interest of $7,832,751 was
paid on late refunds in 52 of the 298 cases where the tentative carryback adjustment processed at
the Cincinnati Campus was for an amount of $1 million or greater. Interest of $7,992,037 was
paid on late refunds in 71 of the 2,487 cases where the tentative carryback adjustment processed
at the Ogden campus was for an amount of $1 million or greater.
Avoidable Interest Paid on Late Refunds Processed in CY 2002
We reviewed the cases to determine why issuance of the refund was delayed and found the IRS
could have taken actions to avoid the payment of an estimated $12.6 million in interest on late
refunds, determined as follows:3
In the Cincinnati sample, total interest of $85,406 could have been avoided on the late refunds in
51 of the 539 cases. Using attribute sampling, we projected the volume of 51 cases to the
population of 13,434 and estimate that interest could have been avoided on late refunds in
1,271 cases. Using variable sampling, we estimate that interest of $2,128,656 (+/- $1,150,020)
could have been avoided in the 1,271 cases.
In the Ogden sample, total interest of $50,004 could have been avoided on the late refunds in
31 of the 428 cases. Using attribute sampling, we projected the volume of 31 cases to the
population of 21,658 and estimate that interest could have been avoided on late refunds in
1,569 cases. Using variable sampling, we estimate that interest of $2,530,345 (+/- $1,745,972)
could have been avoided in the 1,569 cases.
We also reviewed all of the tentative carryback adjustments for amounts of $1 million or more
for Cincinnati and Ogden where interest was paid on a late refund. Interest of $3,631,206 could
have been avoided on late refunds in 35 of the 298 cases where the tentative carryback
adjustment processed at the Cincinnati Campus was for an amount of $1 million or greater.
Interest of $4,296,436 could have been avoided on late refunds in 26 of the 2,487 cases where
the tentative carryback adjustment processed at the Ogden Campus was for an amount of
$1 million or greater.


3
 This includes only interest paid due to the issuance of the refund in excess of 45 days. It does not include interest
paid in error due to erroneous computations as discussed in a previous Treasury Inspector General for Tax
Administration report, Improvements Are Needed to Ensure Large Dollar Manual Refunds Are Issued Accurately
and Timely (Reference Number 2003-30-183, dated August 2003). We also excluded late refunds paid with interest
of less than $100.
                                                                                                             Page 15
               Avoidable Interest Was Paid on Tentative Carryback Refunds
                           Requested by Corporate Taxpayers

Interest Paid on Late Refunds Processed in CY 2003
We also extracted a database of all TC 295s processed to Form 1120 accounts in CY 2003.
From this database of 147,967 transactions, less 87 for the transactions that were split into 2 due
to a partial reassessment, we extracted the 63,731 processed at the Cincinnati Campus and the
79,389 processed at the Ogden Campus. For each Campus, we extracted files of transactions for
amounts of $10,000 or greater, so that any interest paid would be significant. The resulting
databases were stratified to amounts of $10,000 or greater, but less than $1 million; $1 million
and greater, but less than $10 million; and $10 million or greater. The databases included
12,642 transactions for the Cincinnati Campus and 24,009 for the Ogden Campus.
The Cincinnati database for amounts under $1 million (over $10,000) consisted of
12,557 transactions and the Ogden database consisted of 21,837 transactions. It was from these
2 databases that we randomly extracted statistical samples using a 95 percent confidence level
and a confidence interval of 5. The Cincinnati sample size of tentative carryback adjustments for
amounts under $1 million was 381 and the Ogden sample size was 383. There were
63 transactions for amounts of $1 million or greater, but less than $10 million, in the database
from the Cincinnati Campus, but 1,691 for the Ogden Campus, so we randomly selected a
statistical sample of 339 cases from the Ogden database. We again used a 95 percent confidence
level and a confidence interval of 5. There were 22 transactions for amounts of $10 million or
greater processed by the Cincinnati Campus, and 481 processed by the Ogden Campus.
We reviewed the account of each TC 295 in these files to determine if interest was paid on the
refund due to issuance in excess of 45 days. We found that the IRS paid an estimated
$16.2 million in interest on late tentative carryback refunds processed in CY 2003, determined as
follows:
In the Cincinnati sample of TC 295s for amounts less than $1 million, total interest of $46,043
was paid on the late refunds in 28 of the 381 cases. Using attribute sampling, we projected the
volume of 28 cases to the population of 12,557 and estimate that interest was paid on late refunds
in 923 cases. Using variable sampling, we estimate that interest of $1,517,496 (+/- $1,229,902)
was paid in the 923 cases.
In the Ogden sample of TC 295s for amounts less than $1 million, total interest of $28,948 was
paid on the late refunds in 36 of the 383 cases. Using attribute sampling, we projected the
volume of 36 cases to the population of 21,837 and estimate that interest was paid on late refunds
in 2,053 cases. Using variable sampling, we estimate that interest of $1,650,466 (+/- $840,920)
was paid in the 2,053 cases.
Interest of $1,528,122 was paid on late refunds in 17 of the 63 cases where the tentative
carryback adjustment processed at the Cincinnati Campus was for an amount of $1 million or
greater, but less than $10 million.
In the Ogden sample of TC 295s for amounts of $1 million or greater, but less than $10 million,
total interest of $564,455 was paid on the late refunds in 6 of the 339 cases. Using attribute
sampling, we projected the volume of 6 cases to the population of 1,691 and estimate that
                                                                                            Page 16
               Avoidable Interest Was Paid on Tentative Carryback Refunds
                           Requested by Corporate Taxpayers

interest was paid on late refunds in 30 cases. Using variable sampling, we estimate that interest
of $2,815,613 (+/- $2,725,703) was paid in the 30 cases.
Interest of $4,021,282 was paid on late refunds in 3 of the 22 cases where the tentative carryback
adjustment processed at the Cincinnati Campus was for an amount of $10 million or greater, and
interest of $4,628,107 was paid on late refunds in 14 of the 481 cases for this amount processed
at the Ogden Campus.
Projection of estimated avoidable interest for 5 years:
While CY 2002 was an exceptional year due to the consolidation from 10 campuses to
2 campuses processing Forms 1139 and increased volume of Forms 1139 due to the Job Creation
and Workers Assistance Act of 2002, the payment of interest on tentative carryback refunds
continued in CY 2003. We estimated the volume of avoidable interest paid in CY 2003 based on
the ratio in CY 2002 of avoidable interest to interest paid, and used the CY 2003 estimated
amount to project avoidable interest for an additional 3 years.
Total estimated avoidable interest for CY 2002: $12,586,644 ($2,128,656 + $2,530,345 +
$3,631,206 + $4,296,437).
Estimated interest paid on late refunds in CY 2002: $22,771,136 ($2,851,694 + $4,094,654 +
$7,832,751 + $7,992,037)
Estimated interest paid on Late Refunds in CY 2003: $16,161,086 ($1,517,496 + $1,650,466 +
$1,528,122 + $2,815,613 + $4,021,282 + $4,628,107)
$12,586,644 / $22,771,137 = .5527
.5527 X $16,161,086 = $8,932,232
$8,932,232 X 4 years =       $35,728,928 (2003 through 2006)
                              $12,586,644 (2002)
Estimated avoidable interest: $48,315,572




                                                                                           Page 17
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers


                                                             Appendix V


      Management’s Response to the Draft Report




                                                                 Page 18
Avoidable Interest Was Paid on Tentative Carryback Refunds
            Requested by Corporate Taxpayers




                                                             Page 19
